CERTIFICATE OF PAGE AND WORD COUNT
No. TBD
Teresita A. Canuto,
Petitioner(s),
v.
Nancy Pelosi, Rep., et al.,
Respondent(s).
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.2 and 33.1, I certify that the Teresita A.
Canuto Petition for Writ of Certiorari contains 11 pages and 2680 words, including the parts of
the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

'Ghan SeWar

August 12, 2020

SCP Tracking: Canuto-8101 Langdon Avenue, #30-Cover White

